                       ort




               DISTRIBUTION DEPOT REVENUES


Report Number 98-075                     February 13, 1998




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:

                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contract the Defense Hotline by calling
  (800) 424 9098; by sending an electronic message to
  Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
  Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
  is fully protected.




Acronyms

CCP                   Container Consolidation Point
DBOF                  Defense Business Operations Fund
DLA                   Defense Logistics Agency
DWCF                  Defense Working Capital Fund
                                                                       February 13, 1998
MEMORANDUM FOR DIRECTOR, DEFENSE LOGISTICS AGENCY
SUBJECT: Audit Report on Distribution Depot Revenues (Report No. 98-075)

        We are providing this report for information and use. This is the seventh and
final report in a series of reports related to FY 1996 revenues in the Defense Business
Operations Fund.
        We considered management comments on a draft of the report in preparing this
report. The Defense Logistics Agency comments conformed to the requirements of
DOD Directive 7650.3; therefore, additional comments are not required.
        We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Richard B. Bird, Audit Program Director, at (703) 604-9175
(DSN 664-9 175)) e-mail RBird@DODIG.OSD.MIL, or Mr. Byron B. Harbert, Audit
Project Manager, at (303) 676-7405 (DSN 926-7405), e-mail
BHarbert@Cleveland.DFAS.MIL. See Appendix C for the report distribution. The
audit team members are listed inside the back cover.



                                         David K. Steensma
                                  Deputy Assistant Inspector General
                                            for Auditing
                         Office of the Inspector General, DOD

Report No. 98-075                                                     February 13, 1998
   (Project No. 5FD-2020.07)

                               Distribution Depot Revenues

                                   Executive Summary

Introduction. The issue of Distribution Depot revenues was identified during our
audit of the revenue accounts in the FY 1996 Defense Business Operations Fund
financial statements (the revenue accounts audit). The revenue accounts audit was
initiated to support the Chief Financial Officers Act of 1990 (Public Law 101-576,
November 15, 1990) as amended by the Federal Financial Management Act of 1994
(Public Law 103-356, October 13, 1994). In FY 1996, DOD reported $73.7 billion of
revenues in the Defense Business Operations Fund, $1.2 billion of which were
attributable to the Defense Logistics Agency Distribution Depot business area. This is
the seventh and final report in a series of reports on issues related to FY 1996 revenues
in the Defense Business Operations Fund. See Appendix B for details of those reports.
In December 1996, the Under Secretary of Defense (Comptroller) announced that the
Defense Business Operations Fund would be realigned into five working capital funds;
one of these funds is the Defense-Wide Working Capital Fund, which includes the
Distribution Depot business area. That realignment does not affect the issues discussed
in this report.
Audit Objectives. The overall revenue accounts audit objective was to determine
whether revenues on the FY 1996 Defense Business Operations Fund consolidated
financial statements were presented fairly in accordance with the “other comprehensive
basis of accounting” described in Office of Management and Budget Bulletin
No. 94-01, “Form and Content of Agency Financial Statements,” November 16, 1993.
For this portion of the audit, we examined revenues recognized by the Distribution
Depot business area. In addition, we assessed management controls as applicable to the
overall audit objective.
Audit Results. The Distribution Depot business area was not reimbursed for all
transportation and container consolidation point services. Customers were only billed
$126 million of the $275.5 million of costs incurred. As a result, the Distribution
Depot business area lost approximately $150 million in FY 1996, and the lack of full
reimbursement was not disclosed in the FY 1996 financial statements (Finding A).
The Distribution Depot business area continued to provide services to customers in
advance of, or in excess of the amount of, funded orders. Cumulative unfunded
services ranged from $1 million to $75.4 million per month during the 15-month period
ended December 3 1, 1996. As a result, the Distribution Depot business area
experienced cumulative cash disbursements that exceeded cumulative cash collections
by as much as $18 1.4 million during FY 1996. Cash shortages had to be covered by
other Defense Business Operations Fund sources (Finding B).
See Appendix A for details on the material management control weaknesses on the
disclosure of funding deficiencies in the financial statements and the reimbursement for
services.
Summary of Recommendations. Management has implemented plans to require that
customers budget increased amounts for the costs of transportation and container
consolidation point services beginning in FY 1998 and for the Distribution Depot
business area to bill full costs to customers beginning in FY 1999. Therefore, we are
making no recommendations to correct the condition that resulted in a loss of
approximately $150 million. However, we recommend that the Director, Defense
Logistics Agency, disclose the nature and amounts of any future losses resulting from
not billing customers for full costs in the Distribution Depot business area financial
statements.
Management has initiated corrective action to minimize the necessity for the
Distribution Depot business area to provide services to customers in advance of, or in
excess of, funded orders. A recommendation proposed by the Defense Working
Capital Fund Study Group and approved by the Under Secretary of Defense
(Comptroller) should give customers an incentive to provide timely funded orders and
enable distribution depots to collect amounts past due within a reasonable period of
time. Accordingly, we are not making a recommendation at this time regarding the
lack of timely funded orders provided to Distribution Depots.
Management Comments. The Defense Logistics Agency concurred with the
recommendation, agreeing to fully disclose the nature and amount of the losses in
financial statements. See Part I for a complete discussion of management comments and
Part III for the complete text of management comments.




                                           ii
Table of Contents


 Executive Summary                              i


 Part I - Audit Results
       Audit Background                        2
       Audit Objectives                        2
       Finding A. Reimbursement for Services   3
       Finding B. Funding Depot Services       9

 Part II - Additional Information
       Appendix A. Audit Process
         scope                                 16
         Methodology                           16
         Management Control Program            17
       Appendix B. Summary of Prior Coverage   18
       Appendix C. Report Distribution         22

 Part III - Management Comments
       Defense Logistics Agency Comments       26
Part I - Audit Results
Audit Background

     The issue of distribution depot revenues was identified during our audit of
     “Revenue Accounts in the FY 1996 Financial Statements of the Defense
     Business Operations Fund (DBOF)” (the revenue accounts audit). The revenue
     accounts audit was performed to meet requirements of the Chief Financial
     Officers Act of 1990 (Public Law 101-76, November 15, 1990) as amended by
     the Federal Financial Management Act of 1994 (Public Law 103-356,
     October 13, 1994). The Chief Financial Officers Act requires DOD to prepare
     annual, audited financial statements for the preceding year and submit them to
     the Director, Office of Management and Budget. These financial statements
     report the financial position and results of operations of the DBOF
     organizations.
     For FY 1996, DOD reported $73.7 billion of revenues in the DBOF,
     $1.2 billion of which were attributable to the Distribution Depot business area.
     This is the seventh and final report in a series of reports on issues related to
     FY 1996 DBOF revenues. See Appendix B for details of those reports.
     In December 1996, the Under Secretary of Defense (Comptroller) announced
     that the DBOF would be realigned into five working capital funds; one of these
     funds is the Defense-Wide Working Capital Fund, which includes the
     Distribution Depot business area. That realignment does not affect the issues
     discussed in this report.



Audit Objectives

    The overall revenue accounts audit objective was to determine whether revenues
    on the FY 1996 DBOF consolidated financial statements were presented fairly
    in accordance with the “other comprehensive basis of accounting” described in
    Office of Management and Budget Bulletin 94-01, “Form and Content of
    Agency Financial Statements,” November 16, 1993. For this portion of the
    audit, we reviewed FY 1996 revenue for the Distribution Depot business area.
    In addition, we assessed management controls and compliance with laws and
    regulations as applicable to the overall audit objective. See Appendix A for a
    discussion of the audit scope and methodology and for a review of the
    management control program. See Appendix B for a discussion of prior audit
    coverage.
          Finding A. Reimbursement for Services
          The Defense Logistics Agency (DLA) Distribution Depot business area
          was not reimbursed for all transportation and container consolidation
          point (CCP) services in FY 1996. This lack of full reimbursement was
          not disclosed in the FY 1996 financial statements. Customers were
          billed only $126 million of $275.5 million of costs incurred because
          DOD policy prevented DBOF entities from billing customers in excess of
          funded amounts. DLA Distribution Depot business area customers
          budgeted for and funded $126 million for transportation services but did
          not budget for or fund CCP services. In addition, DLA officials had not
          developed a methodology to allocate the cost of services provided to
          specific customers and had not developed stabilized rates or unit prices
          for CCP services. DLA officials overlooked the need to disclose in the
          financial statements the lack of full reimbursement to DBOF. As a
          result, the Distribution Depot business area lost approximately
          $150 million in FY 1996, and the financial statements did not include
          information important to users of those financial statements.



Revenue Recognition and Reimbursement Policy

    DOD 7000.14-R, “DOD Financial Management Regulation, ” volume 1 lB,
    “Reimbursable Operations, Policy and Procedures-Defense Business Operations
    Fund, ” December 21, 1994, governs revenue recognition and reimbursement
    for all DBOF organizations:
              Reimbursement Principles. As a general principle, each activity
              operating under the Defense Business Operations Fund shall be
              reimbursed for the costs of all goods and services ordered and
              produced as a result of those orders. The nature of the Defense
              Business Operations Fund requires ordering agencies to budget,
              control, and account for the cost of all goods and services ordered.
              As a result, a Defense Business Operations Fund activity shall bill
              ordering activities for all costs incurred as a result of an accepted
              order.

              Revenue Billings. In no case shall the total amount of revenue
              recognized and billed exceed the amount of the order.
Finding A. Reimbursement for Services




                 Revenue Recognition Policy. The amount of revenue recognized
                 cannot exceed the amount specified in the order. Activities in the
                 Distribution Depot business area shall recognize revenue, and related
                 costs, based on issue and receipt of materiel or the rendering of
                 service.

                 Reimbursement Basis. Billings to the Department of Defense and
                 other Federal Government customers shall be developed on the basis
                 of either stabilized unit prices, or stabilized rates. Stabilized rates and
                 unit prices shall be established to recover operating expenses
                 estimated to be incurred for the applicable fiscal year. (That is,
                 stabilized rates and unit prices shall be established at levels intended
                 to provide for estimated revenues to equal estimated costs plus
                 approved surcharges for the applicable fiscal year for which the rates
                 and unit prices are established.)

      Stabilized rates are prices established for an entire fiscal year and protect
      appropriated fund customers from unforeseen cost changes. Stabilized rates
      may not be changed without the approval of the Under Secretary of Defense
      (Comptroller).



Transportation Services Policy

      DOD 5000.32-R, “Military Standard Transportation and Movement
      Procedures, ” volumes I and II, March 15, 1987, and February 15, 1987, issue
      DOD policy for the transportation and movement of materiel. DOD
      transportation operating agencies provide or arrange for transportation services
      and bill customers for transportation costs. As the shipping organization, the
      Distribution Depot business area is the customer of the DOD transportation
      operating agencies. As the customer, the Distribution Depot business area pays
      the cost of over-ocean second-destination transportation, which is the
      transportation of materiel from a DLA depot in the continental United States to
      an overseas materiel requisitioner. These costs are then reimbursed to the
      Distribution Depot business area by the Military Department and DLA materiel
      managers that directed the depots to ship the materiel to the requisitioner.




                                                4
                                             Fiidiig A. Reimbursement for Services




CCP Services Policy

    On December 23, 1993, the Deputy Under Secretary of Defense (Logistics)
    issued a memorandum, subject: “Definitions of Distribution Depot Functions. ”
    The memorandum stated that the purpose of a CCP is to combine shipments
    from multiple shippers to generate full container or air pallet loads of cargo for
    direct shipment to overseas customers. The memorandum also stated that CCP
    processing operations shall be reimbursed by a reimbursable order from the
    customer. The DLA identified the reimbursable customer of this service as the
    Military Department and DLA materiel managers who directed the depots to
    ship the materiel.



Revenue and Costs

    The Distribution Depot business area recognized total revenue of $126 million
    and net costs of $275.5 million for over-ocean second-destination transportation
    and CCP services.
    Transportation Services. In FY 1996, the Distribution Depot business area
    recognized $126 million of revenue from over-ocean second-destination
    transportation services. This revenue was recognized at one-twelfth of
    $126 million each month and reimbursement was not based on stabilized rates,
    but was equal to the amount customers had budgeted and funded for these
    services. Associated costs were $282.6 million. These costs included an
    estimated $42 million of costs that should have been billed to other DOD
    organizations but were erroneously charged to the Distribution Depot business
    area. We reported the erroneous charges in IG, DOD, Report No. 97-040,
    “Distribution Depot Over-Ocean Second-Destination Transportation Costs, ”
    December 10, 1996. The net amount of associated cost identified to the
    over-ocean second-destination transportation services is $240.6 million. DLA
    agreed with the recommendation to establish procedures that require payments
    be made only for transportation costs that apply to the Distribution Depot
    business area.
    CCP Services. In FY 1996, the Distribution Depot business area recognized no
    revenue from CCP services because customers had not budgeted for or funded
    those services. In addition, DLA had not developed a methodology for billing
    at stabilized rates. Associated costs were $34.9 million.




                                         5
Finding A. Reimbursement for Services




DOD Comptroller Guidance

      On July 11, 1996, the Principal Deputy Under Secretary of Defense
      (Comptroller) issued a memorandum regarding the FY 1998/1999 Defense
      Biennial Budget Review. This memorandum contained policy on budgeting for
      distribution depot costs for transportation and CCP services:
                 Over Ocean Transportation/Container Consolidation and
                 Packaging. Over Ocean Transportation and CCP costs are currently
                 paid by the Distribution Depot business area and then incompletely
                 charged to materiel manager customers who established the
                 requirement for the transportation/packaging. As discussed in PBD
                 (Program Budget Decision) 402 of December 7, 1995, only a portion
                 of these costs are presently included in distribution depot rates. As
                 directed in PBD 402, the currently unfunded portions of these charges
                 must be budgeted in the FY 199811999 rates.




Allocation of Costs

      N 1996 through N 1998. For FY 1996, DLA had not developed a
      methodology to allocate the costs of transportation and CCP services provided
      to the specific materiel manager that had directed the movement of the materiel.
      During FY 1996, five methodologies were developed to allocate those costs.
      However, DLA does not plan to implement any of these methodologies before
      FY 1999. DLA plans to continue recognizing revenue for transportation
      services and CCP processing services based on amounts budgeted and funded
      through FY 1998.
      N 1999. To resolve questions regarding the allocation of costs for over-ocean
      second-destination transportation and CCP services, the DLA Comptroller
      issued a memorandum, subject: “Funding of CONUS and OCONUS Second
      Destination Transportation (SDT), ” October 8, 1996. The memorandum
      proposes that the Director, Revolving Funds, Office of the Deputy Comptroller
      (Program/Budget), and the Assistant Deputy Under Secretary of Defense
      (Transportation Policy) sponsor a process action team to explore alternative
      methods of allocating transportation costs. The team was tasked to develop
      alternatives for allocating transportation costs and make recommendations to the
      DBOF Corporate Board, so that a final decision could be incorporated in the
      FY 1999 budget guidance. DLA personnel stated that an alternative for
      allocating CCP costs would also be explored by the process action team.



                                              6
Finding A. Reimbursement for Services




DOD Comptroller Guidance

      On July 11, 1996, the Principal Deputy Under Secretary of Defense
      (Comptroller) issued a memorandum regarding the FY 1998/1999 Defense
      Biennial Budget Review. This memorandum contained policy on budgeting for
      distribution depot costs for transportation and CCP services:
                 Over Ocean Transportation/Container Consolidation and
                 Packaging. Over Ocean Transportation and CCP costs are currently
                 paid by the Distribution Depot business area and then incompletely
                 charged to materiel manager customers who established the
                 requirement for the transportation/packaging. As discussed in PBD
                 (Program Budget Decision) 402 of December 7, 1995, only a portion
                 of these costs are presently included in distribution depot rates. As
                 directed in PBD 402, the currently unfunded portions of these charges
                 must be budgeted in the FY 1998/1999 rates.




Allocation of Costs

      N 1996 through N 1998. For FY 1996, DLA had not developed a
      methodology to allocate the costs of transportation and CCP services provided
      to the specific materiel manager that had directed the movement of the materiel.
      During FY 1996, five methodologies were developed to allocate those costs.
      However, DLA does not plan to implement any of these methodologies before
      FY 1999. DLA plans to continue recognizing revenue for transportation
      services and CCP processing services based on amounts budgeted and funded
      through FY 1998.
      N 1999. To resolve questions regarding the allocation of costs for over-ocean
      second-destination transportation and CCP services, the DLA Comptroller
      issued a memorandum, subject: “Funding of CONUS and OCONUS Second
      Destination Transportation (SDT), ” October 8, 1996. The memorandum
      proposes that the Director, Revolving Funds, Office of the Deputy Comptroller
      (Program/Budget), and the Assistant Deputy Under Secretary of Defense
      (Transportation Policy) sponsor a process action team to explore alternative
      methods of allocating transportation costs. The team was tasked to develop
      alternatives for allocating transportation costs and make recommendations to the
      DBOF Corporate Board, so that a final decision could be incorporated in the
      FY 1999 budget guidance. DLA personnel stated that an alternative for
      allocating CCP costs would also be explored by the process action team.



                                              6
                                             Finding A. Reimbursement for Services




Financial Statement Disclosure

     Note 1 .A. to the FY 1996 financial statements for the Distribution Depot
     business area erroneously states that the accounting standards followed in
     preparing the statements were as prescribed by the Federal Accounting
     Standards Advisory Board; DOD 7220.9-M, “DOD Accounting Manual,” as
     amended January 31, 1994; and DOD 7000.14-R. This note, and other
     disclosures in the financial statements, failed to disclose that the Distribution
     Depot business area did not use stabilized rates or prices to obtain full
     reimbursement from customers for over-ocean second-destination transportation
     and CCP services, as required by DOD 7000.14-R. DLA personnel stated that
     they overlooked the need to disclose the lack of full reimbursement.



Summary

    The Distribution Depot business area lost approximately $150 million in
    FY 1996 for transportation and CCP services. The $150 million loss was
    included in the amount of the results of operations for the Distribution Depot
    business area in the FY 1996 financial statements. However, because the
    Principal Deputy Under Secretary of Defense (Comptroller) has implemented
    plans requiring that customers budget for those costs beginning in FY 1998 and
    because the DLA has implemented plans for the Distribution Depot business
    area to bill full costs to customers beginning in FY 1999, we are making no
    recommendations to correct the condition. However, in the interim, DLA
    should disclose the amounts of any losses resulting from not billing customers
    for full costs in a footnote to the DLA working capital fund financial
    statements.




                                         7
Finding A. Reimbursement for Services




Recommendation for Corrective Action

      A. We recommend that the Director, Defense Logistics Agency, disclose
      the nature and amounts of future losses resulting from not charging
      customers for full costs of transportation and container consolidation point
      services in the Distribution Depot business area financial statements.



Management Comments

      The Defense Logistics Agency concurred with the recommendation and will
      disclose the nature and amount of these losses in the FYs 1997 and 1998
      financial statements.




                                        8
            Finding B. Funding Depot Services
            The Distribution Depot business area continued to provide services to
            working capital fund customers in advance of or in excess of the amount
            of funded orders. Cumulative unfunded services ranged from $1 million
            to $75.4 million per month during the 15-month period ended
            31 December 1996. This condition was caused by the need to provide
            services to meet mission requirements and by the lack of consequences
            for customers not providing funds when due. As a result, the
            Distribution Depot business area experienced cumulative cash
            disbursements that exceeded cumulative cash collections by as much as
            $18 1.4 million during FY 1996. Cash shortages had to be covered by
            other DBOF sources.



Financial Policy

     DOD 7000.14-R, “DOD Financial Management Regulation,” volume 1 lB,
     “Reimbursable Operations, Policy and Procedures-Defense Business Operations
     Fund, ” December 21, 1994, states that as a general rule, no work or services
     should be performed by a DBOF organization except on the basis of
     reimbursable orders received and accepted that constitute obligations of Federal
     ordering organizations. Work may begin in advance of receipt and acceptance
     of a formal order under two circumstances:
               Letter of Intent Orders. When it is desirable, in the interest of
               economical operations, to incur limited costs in advance of the receipt
               of a regular order for an authorized program for which customer
               funds are available, such work or services may be undertaken on the
               basis of a letter of intent. This letter constitutes an obligation of the
               ordering activity in a stated amount sufficient to cover the advance
               costs that may be incurred.

                Commanding Offker’s Orders. When it is necessary to begin work
                of an emergency nature prior to the receipt of an order, a commanding
                officer’s order or similar order may be issued by the comman der of
                the Defense Business Operations Fund activity.




                                              9
Finding B. Funding Depot Services




Funding Services

      The Distribution Depot business area provides issue, receipt, storage, and
      over-ocean second-destination transportation services for inventory items that
      are owned and managed by materiel managers of the Army, Navy, Air Force,
      and DLA. Supply system customers pay for these services via a surcharge
      included in the standard unit price of items requisitioned. Although supply
      system customers pay the materiel managers for the services furnished by the
      Distribution Depots, materiel managers do not always provide those funds to the
      Distribution Depots in a timely manner. The following figure shows that during
      the B-month period ended 31 December 1996, the cumulative month-end value
      of services provided to materiel managers without a funded order or in excess of
      a funded order ranged from $1 million to $75.4 million:




           60 -




                  O   N   D   J   F   M    A   M    J   J   A    S   0   N   D

Cumulative Unfunded Services Provided
(October 1995 through December 1996)




                                          10
                                               Finding B. Funding Depot Services



Service Continuation

     Distribution Depots cannot stop providing services, even in the absence of
     funded orders from materiel managers, without incurring serious losses to DOD
     and without impairing the mission of combat forces. When items are received
     from a vendor or other source, the Distribution Depot cannot refuse to accept
     the delivery. Once accepted, the items must be stored; otherwise, the items
     could deteriorate and may not be available for issue to meet mission
     requirements. Items of different materiel managers are usually stored in the
     same warehouse. A Distribution Depot cannot close the warehouse without
     adversely affecting the items of materiel managers that have provided funds. In
     addition, the Distribution Depot should not refuse to issue and ship items
     requisitioned as the ultimate customer (the requisitioner) has already paid for
     those services.



Lack of Consequences

     A primary reason that materiel management organizations did not provide
     timely funded orders to Distribution Depots was because they experienced no
     adverse consequences from not providing timely funded orders. The materiel
     management organizations knew that the services would be provided, regardless
     of funding.



Effect on Cash

    DLA projected the Distribution Depots’ cash collections to exceed cash
    disbursements for each month of FY 1996. However, FY 1996 cumulative
    month-end cash disbursements exceeded collections by $127.7 million to
    $18 1.4 million in the 3-month period ended January 3 1, 1996, and cumulative
    month-end collections exceeded disbursements during only 2 months of
    FY 1996. At the end of FY 1996, the Distribution Depot business area reported
    a negative $7.4 million cash balance. This did not result in a violation of the
    Antideficiency Act as described in Title 3 1, United States Code,
    Section 1517(a), “Prohibited obligations and expenditures,” because cash is
    managed at a level above the Distribution Depot business area. However, cash
    from other DBOF sources had to be used to cover the shortages resulting from
    the inability to bill full costs. For the first quarter of FY 1997, cumulative
    disbursements exceeded collections by $263 million compared with DLA’s


                                        11
Finding B. Funding Depot Services



      projection of $56.2 million. The inability of the Distribution Depots to bill
      customers for unfunded services contributed to not attaining projected monthly
      cash outlay projections for the Distribution Depot business area. In addition,
      not obtaining projected cash balances in multiple business areas could cause an
      Antideficiency Act violation at the DBOF level.



Prior Audit

      In April 1996, the General Accounting Office reported that Distribution Depots
      were performing work before receiving a funded order from customers. The
      General Accounting Office recommended that the Under Secretary of Defense
      (Comptroller) direct DOD organizations to follow existing DOD policy and to
      provide funding documents to DBOF organizations before starting work. In
      response to the recommendation, the Deputy Chief Financial Officer issued a
      memorandum on December 20, 1996, that required all DBOF Components to
      comply with DOD policy on performance of work and to abstain from
      performing work or services in the absence of or in advance of a funded
      customer order. As of March 31, 1997, the Distribution Depot business area
      was still providing these services to materiel managers in the absence of and in
      excess of funded customer orders.



Working Capital Fund Study Group

      On February 14, 1997, DOD established the Defense Working Capital Fund
      (DWCF) Study Group to develop proposed recommendations for improving
      financial management of the DWCF. One of the six major issues addressed by
      the Subcommittee on Price Setting, Surcharges, and Requirements (the
      Subcommittee) was the lack of timely funded orders provided to DWCF
      organizations. The Subcommittee proposed to the DWCF Study Group on
      June 11, 1997, that the following steps be taken:

              o When a funded order has not been submitted after 15 days of
      providing the service, the DWCF organization should notify the comptroller of
      the customer organization and request a funded order.




                                         12
                                              Finding B. Funding Depot Services



          o If funding is not received within 30 days of providing the service, the
   DWCF organization should notify the Under Secretary of Defense
   (Comptroller) and request authorization to directly bill the customer’s
   appropriation account. The Under Secretary of Defense (Comptroller) should
   respond to the request within 15 days.
          o When authorized by the Under Secretary of Defense (Comptroller),
   the DWCF organization may self-reimburse the DWCF, citing the customer’s
   appropriation.
   The DWCF Study Group approved the Subcommittee’s recommendation and
   submitted it to the Under Secretary of Defense (Comptroller), who subsequently
   approved the recommendation and initiated action for implementation.



Summary

   DOD needed to implement measures to ensure that funds are provided to
   Distribution Depots before services are rendered. The recommendation
   proposed by the DWCF Working Group and approved by the Under Secretary
   of Defense (Comptroller) should give customers an incentive to provide timely
   funded orders and enable Distribution Depots to collect amounts past due within
   a reasonable period of time. Accordingly, we are not making a
   recommendation at this time.




                                      13
Part II - Additional Information
Appendix A. Audit Process


Scope

    We reviewed Distribution Depot revenues during our audit of the revenue
    accounts in the FY 1996 DBOF financial statements. As part of this review, we
    evaluated procedures used to recognize and report $1.2 billion of revenue of the
    Distribution Depot business area in FY 1996. We also evaluated funding of
    workload related to secondary inventory items for the 15-month period ended
    December 3 1, 1996, and as of March 3 1, 1997. The Defense Finance and
    Accounting Service Columbus Center maintained the accounting records for the
    Distribution Depot business area.



Methodology

    Work Performed. We evaluated procedures used to recognize and report
    Distribution Depot business area revenue from workload related to issue,
    receipt, storage, and over-ocean second-destination transportation of Military
    Department and DLA owned secondary inventory items; issue, receipt, and
    storage of Military Department owned major end items; and reimbursable
    projects. We also evaluated funding of workload related to Military Department
    and DLA owned secondary inventory items.
    Audit Type, Dates, and Standards. We performed this financial-related audit
    from July through October 1997 in accordance with auditing standards issued by
    the Comptroller General of the United States, as implemented by the Inspector
    General, DOD. Accordingly, we included tests of management controls
    considered necessary. We did not use computer-processed data for this audit.
    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DOD. Further details are available on request.




                                       16
                                                        Appendix A. Audit Process




Management Control Program

    DOD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, requires DOD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that
    programs are operating as intended and to evaluate the adequacy of the controls.
    Scope of Review of Management Control Program. We reviewed the
    adequacy of DLA management controls related to revenue recognition for
    services provided by the Distribution Depot. Specifically, we reviewed
    reimbursement policies and procedures for workload related to issue, receipt,
    storage, and over-ocean second-destination transportation of Military
    Department and DLA owned secondary inventory items; to issue, receipt, and
    storage of Military Department owned major end items; and to reimbursable
    projects. We also reviewed the results of any self-evaluations of those
    management controls.
    Adequacy of Management Controls. We identified material management
    control weaknesses as defined by DOD Directive 5010.38. Management
    controls at DLA were not adequate to ensure that services were not provided at
    less than the full cost or for no charge and that no work or services were
    performed in advance of or in excess of the amount of a funded order. Ongoing
    and planned management actions will improve Distribution Depot revenue
    recognition procedures for services rendered. Recommendation A, if
    implemented, will result in full disclosure of future funding deficiencies in the
    financial statements. We will provide a copy of the report to the senior official
    responsible for DLA management controls.
    Adequacy of Management% Self-Evaluation. DLA officials did not identify
    Distribution Depot revenue recognition as an assessable unit and, therefore, did
    not identify or report the management control weakness identified by the audit.




                                        17
Appendix B. Summary of Prior Coverage


General Accounting Office

    Report No. AIMD-96-54 (OSD Case No. 1109), “Defense Business
    Operations Fund: DOD Is Experiencing Difficulty in Managing the Fund’s
    Cash,” April 10, 1996. The review was requested by the Ranking Minority
    Member of the House Committee on National Security. The report discusses
    various causes of problems in cash management within the DBOF. The audit
    found that the Distribution Depot business area performed work before
    receiving a funded order from customers, resulting in the depots not being able
    to bill customers for work performed in October 1995 and November 1995 until
    December 1995. The report recommended that the Under Secretary of Defense
    (Comptroller) direct DOD activities to follow existing DOD policy and to
    provide funding documents to DBOF organizations before starting work. In
    response to the recommendation, the Deputy Chief Financial Officer issued a
    memorandum on December 20, 1996, that required all DBOF organizations to
    abstain from performing work or services in the absence of or in advance of a
    funded customer order. As noted in our report, this practice continues.



Inspector General, DOD

    The Inspector General, Department of Defense, previously issued six reports on
    issues identified during the audit of the revenue accounts in the FY 1996 DBOF
    financial statements:

    Report No. 98-050, “Audit Report on Defense Business Operations Fund
    Adjustments at the Defense Finance and Accounting Service Denver
    Center,” January 20, 1998. The report states that the Defense Finance and
    Accounting Service Denver Center did not have adequate supporting
    documentation for 111 adjustments totaling $217.5 billion made to the Air
    Force, U.S. Transportation Command, and Joint Logistics Systems Center
    FY 1996 Defense Business Operations Fund account balances. The last nine
    adjustments without supporting documentation brought the Air Force Defense
    Business Operations Fund Results of Operation from a loss of $11 billion to a
    gain of $2.2 billion, and the lack of audit trails contributed to the disclaimed

                                        18
                                   Appendix B. Summary of Prior Coverage




audit opinion for the FY 1996 Defense Business Operations Fund financial
statements. In many instances, adjustments were made to the same accounts
because the adjustments were recorded incorrectly, reversed, reestablished,
decreased, or increased. However, we could not determine the validity of the
adjustments because of the lack of supporting documentation. As a result, the
FY 1996 Defense Business Operations Fund financial statements of the Air
Force, U.S. Transportation Command, and Joint Logistics Systems Center were
subject to higher risk for material misstatement. We recommended that the
Director, Defense Finance and Accounting Service, issue written guidance for
making adjustments. We also recommended that the Director, Defense Finance
and Accounting Service Denver Center, establish procedures to ensure that
adequate explanation and supporting documentation are provided for
adjustments. The Defense Finance and Accounting Service Deputy Director for
Accounting nonconcurred with the recommendation to issue written guidance
for making adjustments and partially concurred with the recommendation to
establish procedures at the Defense Finance and Accounting Service Denver
Center for making adjustments. We have requested that the Director, Defense
Finance and Accounting Service, reconsider the position stated in the Deputy
Director for Accounting’s comments.
Report No. 97-091, “Revenue Recognition Policies for the Army Defense
Business Operations Fund,” February 12, 1997. The report states that the
Army planned to update the Standard Industrial Fund System to meet
DOD 7000.14-R revenue recognition requirements that were superseded by
Office of Management and Budget Statement of Federal Financial Accounting
Standards No. 7 on October 1, 1997. As a result, DOD would have needlessly
spent approximately $45,000 to reconfigure the Standard Industrial Fund
System and would have failed to address a potential impediment to a favorable
financial statement audit opinion. We recommended that the Under Secretary of
Defense (Comptroller) advise the Army Industrial Operations Command to
suspend making the system change until it has been determined how DOD will
implement the Office of Management and Budget revenue recognition standard
for contracts. The Deputy Chief Financial Officer nonconcurred with the
recommendation for the Army to suspend making the system change. However,
the Army Industrial Operations Command suspended action to change the
system. As a result, the intent of the recommendation was satisfied.
Report No. 97-081, “Appropriated Capital Used in the FY 1995 Defense
Business Operations Fund Financial Statements,” January 27, 1997. The
report states that the FY 1995 DBOF consolidated financial statements did not
correctly report the appropriated funds used by DBOF for commissary
operations. As a result, the FY 1995 DBOF financial statements understated
revenues and financing sources by $940 million and overstated the shortage of
revenues and financing sources over expenses by a like amount. We
recommended that the Under Secretary of Defense (Comptroller) rescind an
erroneous policy instruction and ensure that future instructions adhere to
established DOD policy. We also recommended that the Director, Defense

                                   19
Appendix B. Summary of Prior Coverage




      Finance and Accounting Service, correct the FY 1995 error in the FY 1996
      comparative financial statements. Although the Deputy Chief Financial Officer
      agreed to the recommendations, the FY 1996 comparative financial statements
      were not corrected. However, the FY 1997 statements reporter, appropriated
      capital used.
      Report No. 97-040, “Distribution Depot Over-Ocean Second-Destination
      Transportation Costs,” December 10, 1996. The report states that
      transportation costs applicable to other DOD organizations were erroneously
      charged to the Distribution Depot business area of the DBOF. Our review of
      three summary bills of 104,878 shipments, totaling $26.8 million, showed that
      $10.5 million (39 percent) was erroneously charged to the Distribution Depot
      business area. After our review, a management consulting firm hired by the
      DLA found an additional $4 1.8 million (27 percent) of $155.7 million paid
      from April 1995 through March 1996 was not applicable to the Distribution
      Depot business area. As a result, the Distribution Depot business area paid for
      material amounts of transportation costs that should have been paid by other
      DOD organizations. In FY 1995, the Distribution Depot business area lost
      $102 million in over-ocean second-destination transportation costs; this loss was
      caused partly by erroneous bills. We recommended that the Director, DLA,
      change the payment policy to required the Defense Distribution Regions to pay
      only those charges applicable to the Distribution Depot business area.
      Management actions planned were responsive to the recommendations.

      Report No. 96-198, “Defense Logistics Agency Revenue Eliminations,”
      July 22, 1996. The report states that when the DLA made sales to other DBOF
      organizations, the resulting revenues were not eliminated from the amount
      reported in the FY 1995 financial statements, as required by Under Secretary of
      Defense (Comptroller) guidance. Consequently, the $13.3 billion of revenue
      reported by DLA in the FY 1995 DBOF consolidated financial statements was
      overstated by $8.4 billion (63 percent) and by $0.6 billion in the DLA financial
      statements. We recommended that the Defense Finance and Accounting Service
      establish procedures to eliminate revenues from sales to intrafund customers
      when preparing financial statements. We also recommended that DLA review,
      identify, and request correction of any deficiencies in the proposed financial
      statements. Management actions planned were responsive to the
      recommendations.

      Report No. 96-160, “Defense Business Operations Fund Equity
      Transfer-Defense Commissary Agency,” June 13, 1996. The report states
      that at the direction of an official in the Office of the Under Secretary of
      Defense (Comptroller), the Defense Commissary Agency erroneously reported a
      $25 1.6 million transfer of equity from the DLA segment of the DBOF as
      revenue in the FY 1995 financial statements. As a result, revenues and net
      results of operations were overstated by $25 1.6 million in the FY 1995 DBOF
      consolidated financial statements. We recommended that the FY 1995 financial
      statements be corrected and that only appropriate officials be allowed to issue


                                          20
                                   Appendix B. Summary of Prior Coverage



consolidated financial statements. We recommended that the FY 1995 financial
statements be corrected and that only appropriate officials be allowed to issue
accounting Dolicv. The Deoutv Chief Financial Officer agreed to correct the
FY 1995 &kr&l statemenk. ’




                                  21
Appendix C. Report Distribution


Office of the Secretary of Defense

Under Secretary of Defense (Acquisition and Technology)
  Deputy Under Secretary of Defense (Logistics)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director for Accounting Policy
Assistant Secretary of Defense (Public Affairs)


Department of the Army

Commander, Army Materiel Command
Auditor General, Department of the Army


Department of the Navy

Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy
Commander, Naval Supply Systems Command


Department of the Air Force

Commander, Air Force Materiel Command
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force




                                          22
                                                   Appendix C. Report Distribution




Other Defense Organizations

Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Columbus Center
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
   Commander, Defense Distribution Region East
   Commander, Defense Distribution Region West
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency


Non-Defense Federal Organizations

Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal
     Justice, Committee on Government Reform and Oversight
   House Committee on National Security




                                          23
Part III - Management Comments
Defense Logistics Agency Comments

                                    DEFLNSL LDDISTICS ADLNCY
                                              N2ADouART2Rs
                                  2725 JOUN J. KINGMAN ROAD. SUIT2 2233
                                     F T . BlELVOtR. VIWNIA f - 2 2 1


  H NPW
                                                                          I2 ylrlm
   NEFmlo   DDAI




            SUBJECT: Draft Report: Distribmion Dtpot Revems (Pr#?ct No. SFD-2020.07)

              lbisisinresponrtotbeNovembaIO, 1997req~est tfyoubavtmyquutims,plwe
            contact Mr. Dwe Stumpf, (703) 767-6266.




                                          26
                                           Defense Logistics Agency Comments




                                                         J24HIII
subject:   ~istriiDepotRevravts (Pmja3No. 5FD-2020.07)




                                    27
Defense Logistics Agency Comments




           DLA commen t,: wec,,,,mwithtbe~chrtmdiscknrrofthc~md
           uuountsofIossebcitshxkdinthcCFOsutanae Weluveukatstepstomakcafhll
           di~kmucintk1997hancid-




          Auionof6ca:  Lda B. IUcCaM, FOXS, 767-7235
          eview/&pvd: Jim O’~il.lic Bhchm, FOX
          COOIdhhm:     Dave w DDAI, 7676266




                                          28
Audit Team Members

The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DOD, produced this report.
F. Jay Lane
Richard B. Bird
David C. Funk
Byron B. Harbert
Stephen J. Szabanowski
Deborah Curry
